HHS/OIG-Audit--"Review of Administrative Costs Included in the Adjusted Community Rate Proposal for a Missouri Medicare Managed Care Risk Plan, (A-07-00-00107)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Administrative Costs Included in the Adjusted Community Rate
Proposal for a Missouri Medicare Managed Care Risk Plan," (A-07-00-00107)
February 20, 2001
Complete Text of Report is available in PDF format
(1.17 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Currently, there is no statutory or regulatory authority governing allowability
of administrative costs included in the adjusted community rate (ACR) process
for determining Medicare capitation rates under risk-based contracts with managed
care organizations (MCO). At a Missouri-based MCO we found costs of $783,297
(Medicare share $227,156) that would be considered inappropriate when compared
to the Medicare program's general principle of paying only reasonable costs.
These costs included donations, gifts, political contributions, lobbying, memberships,
sponsorships, entertainment, parties, promotional giveaways, and out-of-period
costs. In addition, MCO officials did not provide documentation to support costs
of $2,243,313 (Medicare share $650,561). As a result, we estimate Medicare beneficiaries
paid about $1.5 million in excessive premiums and copayments in contract year
2000. In this final report we point out the flaws in the current methodology
which results in Medicare covering a disproportionate share of the MCO's administrative
costs. Additional reviews are ongoing and preliminary results show similar problems
at other MCOs. The results of these reviews are being shared with the Health
Care Financing Administration so that appropriate legislative changes can be
considered.